Office of Inspector General

U.S. Department of Labor
National Audit and Evaluations Office




                                Florida Department of Education
                                         Tampa, Florida
                                             ***

                                    AUDIT REPORT ON
                           U.S. DEPARTMENT OF LABOR GRANT
                                  NUMBER AC-10749-00-55



                             Performance Audit for Program Year 2000
                                 July 1, 2000 through June 30, 2001




                                               Report Number: 21-03-011-03-365

                                               Date Issued: May 6, 2003
Florida Department of Education

                                       TABLE OF CONTENTS

                                                                                                                       Page

ABBREVIATIONS AND ACRONYMS ..................................................................................i

EXECUTIVE SUMMARY .......................................................................................................1

INTRODUCTION AND BACKGROUND...............................................................................2

OBJECTIVES, SCOPE AND METHODOLOGY....................................................................3

FINDINGS AND RECOMMENDATIONS..............................................................................6

   1 - Participant Files Were Incomplete at One Project Office ................................................6

   2 - Performance Data Reviewed Were Accurate and Properly Supported……………….....9

SCHEDULE A - Schedule of Costs Claimed ..........................................................................10

SCHEDULE A-1 - Schedule of Costs Reported......................................................................11

SCHEDULE B - Schedule of Performance Reported..............................................................12

APPENDIX - Auditee’s Response……….…………………………………………………..15




USDOL/OIG Audit Report No. 21-03-011-03-365
Florida Department of Education

                    ABBREVIATIONS AND ACRONYMS
ALPI       -     Agricultural and Labor Program, Inc.

CFR        -     Code of Federal Regulations

DOL        -     U.S. Department of Labor

DSFP       -     Division of Seasonal Farmworkers Program

ETA        -     Employment and Training Administration

FSR        -     Financial Status Report

FDE        -     Florida Department of Education

NFJP       -     National Farmworker Jobs Program

OMB        -     Office of Management and Budget

OIG        -     Office of Inspector General

WIA        -     Workforce Investment Act




USDOL/OIG Audit Report No. 21-03-011-03-365                 i
Florida Department of Education


                              EXECUTIVE SUMMARY
The U.S. Department of Labor (DOL), Office of Inspector General (OIG), performed an audit of
the Workforce Investment Act’s Migrant and Seasonal Farmworker Program to determine
whether the program was operating in accordance with applicable regulations, and providing the
Department with a return on its investment. DOL provided 53 grants to states and nonprofit
organizations to operate the program within 48 states and Puerto Rico. We selected a statistical
sample of nine grantees and tested (1) the direct and indirect costs claimed for reimbursement by
these grantees to determine if they were reasonable, allowable and allocable in accordance with
OMB Circular A-122 or OMB Circular A-87, as applicable, and grant guidelines; and (2) the
data reported on the Program Status Report to determine if it was accurate and supportable. The
program was audited for Program Year 2000 (July 1, 2000, through June 30, 2001).

This report presents the results of our audit of the Florida Department of Education (FDE) under
DOL Grant Number AC-10749-00-55. Under the authority of the Workforce Investment Act of
1998 (WIA), DOL’s Employment and Training Administration (ETA) awarded FDE a grant of
$4,597,638 to provide training and services to eligible migrant and seasonal farmworkers in the
State of Florida to strengthen their ability to achieve economic self-sufficiency.

FDE established offices in 17 of the 24 counties in Florida that provide training and other
assistance to the migrant and seasonal farmworkers. A number of the counties and school
districts with whom FDE shared space provided FDE staff with space and other amenities at no
cost to the WIA program. During the year, FDE placed 485 participants in unsubsidized jobs,
and provided 1,023 participants with training, 132 participants with work experience, and 1,448
participants with supportive services.

Finding

We reviewed 95 participant files to examine eligibility, costs and types of services provided, and
performance outcomes reported. Fifty of these participant files were at one project office, which
was responsible for providing related assistance to all participants throughout the State. We
found that seven participant files did not contain sufficient information to enable us to determine
whether the participants were eligible for the related assistance received. These seven
participants were from the service center that was responsible for providing all the related
assistance payments. We recommend that ETA recover the $713 paid to these participants, and
require FDE to institute a system that requires appropriate documentation be obtained from all
participants before any release of funds.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                     1
Florida Department of Education

                   INTRODUCTION AND BACKGROUND
The Division of Seasonal Farmworker Programs (DSFP) within ETA is responsible for
administering the National Farmworker Jobs Program (NFJP). The intent of NFJP, under
section 167 of the Workforce Investment Act, is to strengthen the ability of eligible migrant and
seasonal farmworkers and their families to achieve economic self-sufficiency through job
training and other related services that address their employment related needs. Assistance from
the NFJP is accessed through the NFJP grantee partners and local One-Stop Centers.

The Florida Department of Education (FDE) operates the NFJP for the State of Florida,
providing WIA Title I, section 167 services in counties that contain a significant number of
farmworkers. To accomplish this, FDE has developed a service delivery network that consists
of 16 project sites that offer employment and training services in 24 counties. An additional
project site, ALPI (a nonprofit corporation) located in Orange County, is responsible for making
all of the related assistance payments for the program. Applicants who apply for related
assistance at the other sites are referred to ALPI for this service.

Additionally, FDE provides a statewide network of emergency assistance through an extensive
system of volunteers and private vendors. The end result is that there is a WIA Title I Section
167 Program site or counselor within a 30-mile radius of most farmworkers in the service area.
The program is coordinated by the central office located in Tampa, financial records and
documentation is maintained by each project site, and the official financial records are
maintained by the State. FDE was awarded $4.5 million to operate this program.

FDE shares the administrative costs provided for in WIA Title I Section 167 with its 17 project
sites that include community colleges, school districts, boards of county commissioners, and
nonprofit agencies, all with their own unique and separate financial requirements. In addition, a
number of the counties and school districts absorbed costs of the program that were not
provided for in their WIA budget, and provided space and other amenities at no cost to the WIA
program.

FDE provides the participants with core services that include outreach, admission and
orientation of farmworkers, as well as emergency assistance needed by farmworkers to sustain
their participation in the agricultural workforce. It also provides intensive services that include
in-depth assessments of aptitudes and abilities and the development of an Individual
Employment Plan based upon these assessments. Training services are usually in the context of
a classroom environment and are provided by institutions that contract with FDE on a per-
participant basis according to the objectives of the participant’s Individual Employment Plan.
Projects operated by FDE pay for the participants’ tuition and books, and provide the
participants with a weekly stipend. FDE also contracts with employers to provide the
participants with on-the-job training. Projects operated by FDE are responsible for reimbursing
the employers for 50 percent of the participants’ costs.


USDOL/OIG Audit Report No. 21-03-011-03-365                                                      2
Florida Department of Education


             OBJECTIVES, SCOPE AND METHODOLOGY
The primary objectives of our audit were to determine whether the costs claimed by FDE for the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable,
and allocable under the cost principles set forth in OMB Circular A-87 and grant guidelines, and
to determine if performance reported was accurate and properly supported.

Our audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting
records and other accounting procedures as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included:
OMB Circulars A-102, Uniform Administrative Requirements for Grants and Cooperative
Agreements with State and Local Governments, and A-87, Cost Principles for State, Local and
Indian Tribal Governments; the Workforce Investment Act of 1998 (WIA); 20 CFR Part 669
National Farmworker Jobs Program under Title 1 of the WIA; and 29 CFR Parts 95 and 96,
Administrative Requirements and Audits of Federally Funded Grants, Contracts, and
Agreements.

Management Controls

To meet our objectives, we reviewed management controls over relevant transaction cycles.
Our work on established management controls included obtaining and reviewing policies and
procedures manuals, interviewing key personnel, and reviewing selected transactions to observe
the controls in place. Our testing related to management controls focused only on the controls
related to our audit objectives to review reported cost and performance data and was not
intended to form an opinion on the adequacy of management controls. Therefore, we do not
render such an opinion. Weaknesses noted in our testing are discussed in the Findings section
of this report.

Compliance with Laws and Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the
program during our audit period. Our detailed tests of transactions included both analytical
review and substantive tests of accounts. Our testing related to compliance with laws and
regulations was focused only on the laws and regulations relevant to our audit objectives of
reviewing the reported cost and performance data and was not intended to form an opinion on
the compliance with laws and regulations as a whole, and we do not render such an opinion.
Instances of noncompliance are discussed in the Findings section of this report.

We selected a statistical sample of the participants served by Florida, and tested participant
eligibility and outcomes, where appropriate. We reviewed a sample of 95 participant files. Our
USDOL/OIG Audit Report No. 21-03-011-03-365                                                   3
Florida Department of Education
sample technique was a random selection; therefore, all participants had an equal chance of
being selected. For each participant file, we reviewed the eligibility determination, reviewed the
types of services provided and the cost of those services, and analyzed the program outcome for
those exiting the program.

In addition, we randomly selected 10 of the 16 offices that provided the migrant and seasonal
farmworkers with services and support in order to review the financial data. The selection was
based on the amount of funding each office received and the area serviced. For each office
visited, we selected one month to test all expenses, with the option of expanding to other
months if discrepancies were noted. Our decision was based on the majority of costs in three
categories: salaries, fringe benefits and allowances. Expanded testing was not necessary.

The table below shows the types of services provided to participants during the year and the
number of participants who received these services.


                Types of Services Provided                                 Number of
                                                                           Participants
                Support Services                                           1,448
                Training                                                   1,023
                Placements                                                   485
                Work Experience                                              132


Note: Total number of participants in this graph exceeds the number of participants served because participants
were in more than one training program. This data was extracted from the Program Status Summary report.

In Program Year 2000, FDE served 2,948 participants. The largest group receiving services was
migrant farmworkers who received supportive services1/ emergency assistance2, such as
vouchers for food, transportation assistance, clothing, rent, electricity, uniforms, and tools. The
next largest were participants provided classroom training, on-the-job training and vocational
education3. In addition, FDE provided some participants with work experience training and job
placement.




1
  Services such as transportation, childcare, dependent care, housing and needs related payments that are necessary
to enable an individual to participate in the program.
2
  Assistance that addresses immediate needs of farmworkers and their families.
3
  Organized educational programs offering sequences of courses directly related to preparing individuals for paid or
unpaid employment.
USDOL/OIG Audit Report No. 21-03-011-03-365                                                                       4
Florida Department of Education

The costs claimed and performance reported by FDE is presented in the Schedules of Costs
Claimed and Performance Reported included in this report as Schedules A and B, respectively.
These schedules are based on the information reported to ETA in the Financial Status Report
and Program Status Summary.

Entrance and Exit Conferences

We held an entrance conference with FDE officials on February 4, 2002, to discuss the purpose,
scope and timing of the audit work to be performed. Our fieldwork was performed at FDE’s
office in Tampa, Florida, during the period February 4 through March 15, 2002. We held an
exit conference with FDE officials on March 15, 2002, to discuss our findings and obtain their
comments.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                 5
Florida Department of Education

                  FINDINGS AND RECOMMENDATIONS
1. Participant Files Were Incomplete at One Project Office

During Program Year 2000, FDE provided training and services to over 2,900 participants. To
determine how effective FDE's management controls over selecting eligible participants were,
we selected a statistical sample of 95 participants. Fifty of the participants selected were from
one site, Agricultural and Labor Program, Inc. (ALPI), a nonprofit organization that contracted
to provide emergency assistance payments to the migrant and seasonal farmworkers. This
assistance consisted of money for food, clothing, rent, utilities, and transportation. ALPI
provided services to almost one-half of the participants served.

ALPI differed from the other sites in that those sites provided the participants with training and
employment services, while ALPI was limited to providing related assistance. All of these sites
were responsible for enrolling participants. Our review of the participant files disclosed that 7
of the 95 participant files selected in our sample (7 percent) lacked sufficient documentation to
allow us to determine whether the participants were eligible for the program. All seven were
enrolled by ALPI.

The Attachment to NFJP Bulletin No. 00-02, effective July 1, 2000, states that: “As part of their
system of internal controls, grantees are expected to obtain source documentation that verifies
the information provided by applicants covering such key eligibility elements as age, work
history and earnings from agriculture labor, family size and income, work authorization, and
compliance with Selective Service requirements.”

In addition, paragraph 669.360(b) states that: “In providing emergency assistance, the MSFW
may use an abbreviated eligibility determination process that accepts the applicant’s self-
attestation as final evidence of eligibility, except that self attestation may not be used to
establish the requirements of legal working status in the United States, and Selective Service
registration, where applicable.”

To ensure that participants were eligible, we reviewed the files for the following documentation:
(1) state issued identification card, (2) government issued identification, (3) social security card,
(4) birth certificate, (5) INS card, (6) W-2 form, and (7) a verification letter from the last
employer, or a statement from someone that worked with the individual during the period the
participant claimed to have worked, or a statement from someone who observed the participant
performing migrant or seasonal farmwork.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                        6
Florida Department of Education

Of the 50 participant files reviewed at ALPI, 13 contained the documentation described, and
were qualified at the ALPI office. Thirty participant files contained a staff verification sheet
where the staff attested to the fact that they saw the required documentation, and checked off
those documents the participant presented. We accepted this document as a substitute for copies
of the required documentation, and for the participant’s self-verification, but informed ALPI that
in the future we would expect to see the actual documentation.

Seven participant files did not have any documentation. We were told by the ALPI Director
that many of the participants were qualified in the field and there was no way to copy the
documents. Therefore, the staff reviewed the information the applicant presented and qualified
them for the services. For those instances where participants were qualified at the one-stop
centers, we were told that the staff was not aware they could use the one-stop’s photocopying
equipment.

For the remaining 45 participant files in our sample, which included participants serviced at the
other sites, we found supporting documentation, and determined those participants were
eligible.

ALPI provided supportive services/emergency assistance to 1,448 participants during the year.
The seven participants whose files lacked documentation received vouchers totaling $713 for
such things as water, rent, food and electricity, which we question.

ALPI needs to strengthen its internal controls over participant selection by developing and
implementing a policy that prohibits the payment of funds to any participant until documents in
the participant’s file support the eligibility.

RECOMMENDATIONS:

We recommend that the Assistant Secretary for ETA:

1.   Ensure that FDE develops policies and procedures for documenting emergency assistance
     payments, and follows up to ensure the office responsible for these payments properly
     documents participants eligibility before providing the vouchers.

2.   Recover the $713 in questioned costs.

AUDITEE’S RESPONSE:

As a result of the recommendations made by the audit and evaluation team during its visit, the
Florida Department of Education immediately required the Agricultural Labor Program, Inc., to
obtain and retain copies of support documentation for all recipients of Emergency Assistance,
specifically in regards to (1) state issued identification card, (2) government issued
identification, (3) social security card, (4) birth certificate, (5) INS card, (6) W-2 form, and (7) a
USDOL/OIG Audit Report No. 21-03-011-03-365                                                        7
Florida Department of Education
verification letter from the last employer, or a statement from someone that worked with the
individual during the period the participant claimed to have worked, or a statement from
someone who observed the participant performing migrant or seasonal work.

In most cases, emergency assistance is delivered by a small staff of experienced individuals,
who go to those counties where the need for this type of service has been identified. Since
services are provided in the field, staff is given temporary space by faith based organizations,
Title I, Migrant Education Programs, family literacy centers, health clinics, but rarely in the
One-Stop Centers, as these are not open in the evenings or weekends when farmworkers are able
to take time off from work. As most of these organizations have limited resources, staff was not
able to obtain copies of support documentation for the seven cases identified in the report.

In order to eliminate this problem, ALPI was instructed to: (1) set up an account in order to
compensate these organizations for the use of their equipment, (2) staff primarily responsible for
delivering services in the field will be provided digital cameras by ALPI so that they can
photocopy support documentation that can be electronically saved as well as printed in hard
form.

OIG’S CONCLUSION:

We consider Recommendation No.1 closed based on the policies and procedures that FDE provided
on March 31, 2003. To achieve resolution for Recommendation No. 2, the Assistant Secretary for
ETA should recover the $713 in questioned costs.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                     8
Florida Department of Education

2.   Performance Data Reviewed Was Accurate And Properly Supported

We reviewed the data reported by FDE on the Program Status Summary to determine whether
this information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases FDE maintained. A summary of
this data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included a review of the underlying support for the Program Status
Summary, as a whole, and the reported program information for the selected sample
participants. The results of our review agreed with the reported outcomes for those participants
in the program.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                    9
Florida Department of Education

                                                                                                    Schedule A


                 FLORIDA DEPARTMENT OF EDUCATION
                    SCHEDULE OF COSTS REPORTED
          FOR THE PERIOD OF JULY 1, 2000 THROUGH JUNE 30, 2001


                                Financial Status Report               Reported

                                Administration                        $480,2224

                                Program                              4,117,4165


                                Total Costs                         $4,597,6386




4
  Costs of performing overall general administrative functions, both personnel and non-personnel, and direct and
indirect.
5
  Costs of related assistance services such as emergency assistance, workplace safety, housing development, and
other supportive services. Other costs not defined as administrative.
6
  Costs incurred up to the amount of the budget DOL provided to FDE for the Migrant and Farmworker Program.
USDOL/OIG Audit Report No. 21-03-011-03-365                                                                     10
Florida Department of Education
                                                                                             Schedule A-1



                 FLORIDA DEPARTMENT OF EDUCATION
                    SCHEDULE OF COSTS REPORTED
          FOR THE PERIOD OF JULY 1, 2000 THROUGH JUNE 30, 2001


               Expenditure Report                              Recorded            Reported

               A. Administration

                   Salaries                                     $194,243
                   Fringe Benefits                                52,192
                   Indirect Costs                                156,717
                   Other Administration Costs                     66,456
               Total Administration                             $469,608           $480,222


               B. Program

                  1. Salaries                                 $1,911,585
                  2. Fringe Benefits                             503,367
                  3. Travel                                      109,243
                  4. Allowances                                  803,848
                  5. Tuition                                     117,996
                  6. Supportive Services                         166,949
                  7. Work Experience                             103,923
                  8. On-the-Job Training                           8,173
                  9. Classroom Training                           50,832
                 10. Voc. Ed. Tuition                             62,436
                 11. Training Related Assistance                  25,036
                 12. Other Program Costs                         311,977
               Total Program Costs                             4,175,365           4,117,416

               Total Costs                                   *$4,644,973         $4,597,638



*ETA extended the Program Year through December for the Migrant Seasonal Farmworker Program. This additional
extension included funding of $47,335.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                               11
Florida Department of Education
                                                                                Schedule B




                FLORIDA DEPARTMENT OF EDUCATION
               SCHEDULE OF PERFORMANCE REPORTED
         FOR THE PERIOD OF JULY 1, 2000 THROUGH JUNE 30, 2001


              Category                                     Planned   Reported

              Participation and Termination Summary

              Total Participants                              2676       2948
               Total Terminations                             2083       2298
                 Entered Unsubsidized Employment               502        485
                 Related Assistance                              -       1448
                 All Other Terminations                       1581        365
              Total Current Participants (End of Period)       593        650

              Participation in Program Activities
              Classroom Training                                         1007
              On-The-Job Training                                          16
              Work Experience                                             132
              Training Assistance                                         912




USDOL/OIG Audit Report No. 21-03-011-03-365                                            12
Florida Department of Education

                                                                          Schedule B, Continued


                FLORIDA DEPARTMENT OF EDUCATION
                    SCHEDULE OF TERMINOLOGY
         FOR THE PERIOD OF JULY 1, 2000 THROUGH JUNE 30, 2001


Terminology

Participants                                  Disadvantaged migrant and seasonal farmworkers
                                              and their dependents.

Total Participants                            Includes all participants that were provided any
                                              services during the program year. Includes
                                              participants carried over, new participants, and
                                              those exiting during the program year.

Total Terminations                            Includes all participants who exited the program
                                              during the year.

Entered Unsubsidized Employment               Includes all participants placed in a non-federally
                                              subsidized job.

Related Assistance                            Participants receiving assistance consisting of at
                                              least one of the following: emergency assistance,
                                              workplace safety and farmworker pesticide safety
                                              instruction, housing development assistance, other
                                              supportive services or structured English language
                                              and basic education classes.

Classroom Training                            Structured training in a classroom setting.

On-the-Job-Training                           Training by an employer that is provided to a paid
                                              participant while engaged in productive work in a
                                              job.

Work Experience                               A planned, structured learning experience that
                                              takes place in a workplace for a limited period of
                                              time.




USDOL/OIG Audit Report No. 21-03-011-03-365                                                      13
Florida Department of Education

                                                                          Schedule B, Continued


                FLORIDA DEPARTMENT OF EDUCATION
                    SCHEDULE OF TERMINOLOGY
         FOR THE PERIOD OF JULY 1, 2000 THROUGH JUNE 30, 2001


Training Assistance                           Training related supportive services and other
                                              activities identified in the approved grant plan.

Direct Placement                              Participants referred directly to a job with no
                                              training services provided. (Detail not required to
                                              be reported under WIA).

Indirect Placement                            Participants placed in a job after training or
                                              enhancement services. (Detail not required to be
                                              reported under WIA).




USDOL/OIG Audit Report No. 21-03-011-03-365                                                       14
                                              APPENDIX




USDOL/OIG Audit Report No. 21-03-011-03-365
                                              APPENDIX




USDOL/OIG Audit Report No. 21-03-011-03-365
                                              APPENDIX




USDOL/OIG Audit Report No. 21-03-011-03-365
